No. ______
IN THE

Supreme Court of the United States
ORLANDO CARTER,
Petitioner,
v.
DISTRICT OF COLUMBIA,
Respondent.
CERTIFICATE OF SERVICE
I, Jessica Ring Amunson, hereby certify that I am a member of the Bar of this
Court, and that I have this 1st day of September 2021, caused three copies of the
Petition for a Writ of Certiorari to be served via overnight mail and an electronic
version of the document to be transmitted via the Court’s electronic filing system to:
Elizabeth Trosman
Assistant United States Attorney
United States Attorney’s Office
555 Fourth Street, NW
Washington, D.C. 20530
elizabeth.trosman@usdoj.gov
Counsel for District of Columbia

/s/ Jessica Ring Amunson
Jessica Ring Amunson

